NO. _________
IN THE SUPREME COURT OF THE UNITED STATES
JOSE SANCHEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

__________________________________________
PETITION FOR A WRIT OF CERTIORARI
APPENDIX
__________________________________________

INDEX TO APPENDIX

United States v. Sanchez, 955 F.3d 669 (8th Cir. 2020) ............................................ 1a
Order Denying Motion to Suppress .......................................................................... 13a
Order Denying Petition for Rehearing ...................................................................... 28a

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

willfully made false, fictitious or fraudulent
statements.

669

Kelly, Circuit Judge, filed dissenting opinion.

* * * * * *
The judgment is affirmed.

,
UNITED STATES of America
Plaintiff - Appellee
v.
Jose SANCHEZ Defendant - Appellant
No. 18-1890
United States Court of Appeals,
Eighth Circuit.
Submitted: January 16, 2019
Filed: April 3, 2020
Rehearing Denied May 29, 2020
Background: Defendant charged with
narcotics offenses based on evidence discovered during traffic stop filed motion to
suppress evidence. The United States District Court for the Western District of
Arkansas, Susan O. Hickey, J., denied motion, and defendant appealed.
Holdings: The Court of Appeals, Melloy,
Senior Circuit Judge, held that:
(1) police officer had reasonable suspicion
of criminal activity, of kind sufficient to
support his prolongation of lawful traffic stop;
(2) during an otherwise lawfully extended
traffic stop, officer could look at the
undercarriage of vehicle without probable cause;
(3) officer could properly seize object that
he notice wrapped in plastic inside
spare tire on undercarriage of vehicle.
Affirmed.

1. Automobiles O349(2.1, 10)
Traffic stop constitutes a Fourth
Amendment ‘‘seizure’’ of the vehicle’s occupants, and for that reason, it must be
justified by reasonable suspicion that criminal activity may be afoot. U.S. Const.
Amend. 4.
2. Automobiles O349(14.1)
When law enforcement officer makes
a routine traffic stop, officer is entitled to
conduct an investigation reasonably related in scope to the circumstances that initially prompted the stop. U.S. Const.
Amend. 4.
3. Automobiles O349(17)
Even a lawful traffic stop may become
unlawful if it is prolonged beyond the time
reasonably required to complete the mission of the stop. U.S. Const. Amend. 4.
4. Automobiles O349(17, 18)
Tolerable duration of police inquiries
during traffic stop is determined by the
stop’s mission, i.e., to address the traffic
violation that warranted the stop and attend to related safety concerns; authority
for the stop ends when tasks tied to the
traffic infraction are, or reasonably should
have been, completed.
U.S. Const.
Amend. 4.
5. Automobiles O349(17)
Delay that prolongs the duration of
traffic stop to conduct investigatory actions unrelated to the purposes of the stop
is impermissible unless supported by reasonable suspicion of criminal activity.
U.S. Const. Amend. 4.
6. Criminal Law O1139, 1158.12
As general rule, determinations of
‘‘reasonable suspicion’’ and of ‘‘probable
cause’’ should be reviewed de novo on ap-

1a

670

955 FEDERAL REPORTER, 3d SERIES

peal from denial of motion to suppress
evidence; however, reviewing court should
take care both to review findings of historical fact only for clear error and to give
due weight to inferences drawn from those
facts by resident judges and local law enforcement officers. U.S. Const. Amend. 4.
7. Arrest O60.2(10)
Concept of ‘‘reasonable suspicion’’ of
criminal activity, of kind required to justify
an investigatory stop, is somewhat abstract, but the likelihood of criminal activity need not rise to the level required for
probable cause, and it falls considerably
short of satisfying a ‘‘preponderance of the
evidence’’ standard. U.S. Const. Amend.
4.
8. Arrest O60.2(10)
Determination as to whether there
was ‘‘reasonable suspicion’’ of criminal activity, of kind required to support an investigatory stop, must be made based on totality of the circumstances, and courts may
not view individual elements of suspicion in
isolation; Terry precludes such a divideand-conquer analysis. U.S. Const. Amend.
4.
9. Arrest O60.2(10)
In deciding whether there was ‘‘reasonable suspicion’’ of criminal activity, of
kind required in order to support an investigatory stop, court must view the individual elements in context, i.e., in light of one
another, and give due weight to officer’s
inferences when assessing the overall level
of suspicion. U.S. Const. Amend. 4.
10. Arrest O60.2(10)
Determination that reasonable suspicion of criminal activity exists, of kind
required for an investigatory stop, need
not rule out the possibility of innocent
conduct. U.S. Const. Amend. 4.

11. Automobiles O349(17, 18)
Police officer had reasonable suspicion
of criminal activity, of kind sufficient to
support his prolongation of lawful traffic
stop until drug sniff dog could arrive,
based on fact that vehicle was out-of-state
truck with expired paper tags being driven
in middle of night by occupants who were
not truck’s owner, did not have valid driver’s license, and expressed some confusion
as to the owner’s name, based on fact that
purported purpose of trip was three-day
paint job but that there was only a single
can of paint in truck’s bed, based on fact
that driver and his passenger gave different first names for driver, though one of
them was allegedly a nickname, and based
on officer’s belief that it was unusual for
driver to bring two small children and an
unlicensed partner/significant other with
him for midnight travel in unlicensed vehicle for short term out-of-state job. U.S.
Const. Amend. 4.
12. Automobiles O349(17)
Statement by officer effecting lawful
traffic stop that he want to search vehicle
because the situation made the ‘‘hair on
the back of [his] neck stand[ ] up for some
reason,’’ did not show that his suspicion of
criminal activity was insufficiently particularized and insufficient to support prolongation of traffic stop. U.S. Const. Amend.
4.
13. Automobiles O349.5(8)
Searches and Seizures O61
During an otherwise lawfully extended traffic stop, law enforcement officer
may look at the undercarriage of vehicle
without probable cause; motorists have no
recognized privacy interest in undercarriages of their vehicles. U.S. Const.
Amend. 4.
14. Searches and Seizures O61
Motorists have no recognized privacy
interest, of kind protected by the Fourth

2a

671

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

Amendment, in the exterior of their vehicles, or in interior spaces visible to the
public. U.S. Const. Amend. 4.
15. Automobiles O349.5(8)
Searches and Seizures O65
Law enforcement officers, without violating any privacy interest possessed by
motorists and protected by the Fourth
Amendment, may crouch and change position when conducting an exterior examination of motor vehicle that they have lawfully stopped, and may use a flashlight to
artificially illuminate the area being
viewed. U.S. Const. Amend. 4.
16. Automobiles O349.5(8)
Police officer who had lawfully prolonged traffic stop based on reasonable
suspicion of criminal activity, long enough
for drug dog to arrive and to alert to
vehicle, could properly seize object that he
noticed wrapped in plastic inside spare tire
on undercarriage of vehicle, though it was
not until officer examined plastic bundle
that he could determine that it contained
methamphetamine; upon seeing through
the openings in spare tire and noticing
something wrapped in black plastic, this
new information added to the totality of
the circumstances already known to officers, raising the level of suspicion they
possessed. U.S. Const. Amend. 4.

Appeal from United States District
Court for the Western District of Arkansas - Hot Springs
Counsel who presented argument on behalf of the appellant and appeared on the
brief was Christopher Aaron Holt, AFPD,
of Fayetteville, AR.
Counsel who presented argument on behalf of the appellee and appeared on the
brief was Amy M. Driver, AUSA, of Fort
Smith, AR.

Before BENTON, MELLOY, and
KELLY, Circuit Judges.
MELLOY, Circuit Judge.
An Arkansas state trooper stopped Jose
Sanchez while he was driving a pickup
truck without license plates shortly after
midnight. After confirming that Sanchez
had no driver’s license, no criminal history,
and no outstanding warrants, the trooper
continued to hold Sanchez and conducted a
canine sniff of the truck. In addition, the
trooper crawled on the ground to look at
the truck’s undercarriage. From the
ground, the trooper saw a black plastic bag
located above a spare tire, seized the bag,
and arrested Sanchez.
Sanchez moved unsuccessfully to suppress evidence seized from the vehicle’s
undercarriage, arguing a lack of reasonable suspicion to extend the traffic stop.
Following denial of his suppression motion,
Sanchez entered a conditional plea of
guilty to one count of possession of 50
grams or more of actual methamphetamine
with intent to distribute, in violation of 21
U.S.C. § 841(a)(1) and (b)(1)(A)(viii). Sanchez appeals the denial of his motion to
suppress, and we affirm.
I.

Background

Shortly after midnight on May 26, 2016,
Arkansas state trooper Derek Nietert
stopped Sanchez on Interstate 30 near
Malvern, Arkansas. Nietert stopped the
truck because it had no license plates and
he could not read its paper tags. Once
Nietert stopped the truck, he noticed that
the paper tags had recently expired. Sanchez was traveling with Vanessa Fuentes,
who was in the passenger seat, and their
two ‘‘very small children,’’ who were in the
backseat. Nietert testified that Sanchez
looked ‘‘concerned’’ when Nietert approached the vehicle. Sanchez spoke little
English, so Nietert mostly communicated

3a

672

955 FEDERAL REPORTER, 3d SERIES

through Fuentes, who told Nietert that the
driver was Jose Sanchez and that neither
of them had a driver’s license. Nietert
testified that he believed they produced an
insurance card bearing a different individual’s name. Nietert realized the vehicle
was at an unsafe location where a guardrail left little space between the vehicle
and fast-moving traffic, so Nietert asked
Sanchez to drive ahead to an exit. Sanchez
did so.
At the second location, after riding the
short distance alone in the truck with Sanchez and the children, Fuentes explained
to Nietert that they had borrowed the
vehicle from Sanchez’s friend and were
traveling from Dallas, Texas, to Little
Rock, Arkansas, so that Sanchez could
complete a two-to-three-day job painting a
house. Fuentes did not know the truck
owner’s name. She stated they would be
staying at a hotel, but did not know which
hotel.
Nietert asked Sanchez to step out of the
vehicle. Sanchez did so, and despite the
language barrier, Sanchez confirmed some
of the statements Fuentes had previously
relayed to Nietert. Sanchez did, however,
indicate that his first name was Jimmy
rather than Jose. In addition, Sanchez
identified his friend Miguel as the owner of
the vehicle.
Nietert thought it was suspicious that
Sanchez would bring Fuentes and their
two children to Arkansas for a short job.
Nietert observed two suitcases in the rear
of the cab. In addition, he noted that he
saw only one gallon of paint in the truck’s
bed, with no brushes or other paint or
equipment visible. When questioned further, Fuentes explained that Sanchez
would be working alone, not as part of a
1.

On the night of the stop, a civilian was
riding along with Nietert at the behest of
Nietert’s superiors. Several of Nietert’s comments as captured in the video appear to have

crew, and she believed the materials and
equipment for the project were being provided by the homeowner in Little Rock.
Nietert also questioned Fuentes as to why
she reported Sanchez’s first name was
‘‘Jose’’ while Sanchez said his name was
‘‘Jimmy.’’ From the video evidence, it appears that Fuentes told Nietert that Jimmy was a nickname. Also on audio from
the same evidence, Nietert indicated when
talking to Fuentes that the name on the
insurance card did not match the owner’s
name as asserted by Sanchez.
Nietert radioed Sanchez’s name and
date of birth to perform a warrant check.
Nineteen minutes into the stop, dispatch
confirmed that Sanchez did not have a
driver’s license and did not have any reported criminal history. Outside the presence of Fuentes and Sanchez, Nietert summarized the information available and said,
‘‘It’s got the TTT hair on the back of my
neck standing up for some reason. TTT I
wanna search it.’’1
One minute after obtaining the results of
the criminal history check, Nietert asked
Fuentes for consent to search the vehicle
and she declined. Approximately two minutes passed between the time that Fuentes
declined to give consent and the canine
sniff. Corporal Mike Bowman arrived and
directed the canine. Before doing so, but
after learning that neither adult had a
license, the vehicle had expired tags, and
the ownership was unknown, Bowman
stated simply, ‘‘tow it.’’ Nietert, in apparent explanation for why he had not simply
called for a tow, responded that there were
two babies present.
The canine sniff proceeded, and Bowman reported that the canine alerted. The
been comments to the civilian. This same
person exited Nietert’s cruiser at the second
location and is seen in the video at various
times.

4a

673

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

officers began searching the vehicle’s cab
area. Approximately ten minutes into the
search, Bowman crawled under the vehicle
and indicated he had located something.
Nietert went under the vehicle and saw
through holes in the spare wheel that a
black plastic bundle was secreted above
the wheel. Nietert arrested Sanchez and
removed the bundle, which was later determined to contain methamphetamine.
Sanchez was charged with conspiracy to
distribute methamphetamine, possession
with intent to distribute methamphetamine, and traveling in interstate commerce with the intent to promote unlawful
activity.
Sanchez moved to suppress the methamphetamine evidence. Prior to the suppression hearing, the government conceded
that the canine sniff did not provide troopers with probable cause to search the vehicle because Bowman had not followed
proper canine handling procedures. At the
hearing, the government introduced dash
camera footage of the traffic stop, and
both Nietert and Sanchez testified.
Nietert testified that, before conducting
the search, he was considering towing the
vehicle because neither Sanchez nor
Fuentes had a valid driver’s license and
neither was listed as the owner of the
vehicle. He acknowledged that troopers do
not always impound vehicles under these
circumstances and that he had not yet
decided whether to do so when he called
for the canine unit. Nietert testified that,
had the vehicle been impounded, troopers
would have conducted an inventory search.
Nietert admitted that he did not run the
truck’s VIN to check its ownership or determine if it had been reported as stolen.
He indicated, however, that when vehicles
have paper tags, VIN checks are often
inconclusive as to ownership due to the
recency of changes in ownership likely surrounding the issuance of paper tags.

Defense counsel questioned Nietert as
to several aspects of the stop. Nietert admitted that he did not ask the name of the
homeowner to confirm the information
about a painting job. In addition, counsel
suggested Nietert ‘‘wasn’t concerned about
Mr. Sanchez or Ms. Fuentes. You had
them drive to another exit TTT And they
were free to move about the truck while
you were running Mr. Sanchez’s information.’’ Nietert responded the ‘‘[u]nder the
special circumstances with the babies, TTT
I hate to see them stressed out without
their parents. So, yeah. I allowed that.’’
The district court denied Sanchez’s motion to suppress, concluding that reasonable suspicion justified the length of the
stop and that exterior visual inspection of
the undercarriage did not require probable
cause. The court also concluded that, upon
seeing the black plastic bundle, officers
had probable cause to seize the bundle.
Sanchez entered a conditional guilty plea
to the charge of possession with intent to
distribute, reserving the right to appeal
the denial of his suppression motion. He
was sentenced to 63 months of imprisonment.
II.

Discussion

Sanchez presses three arguments on appeal. First, he asserts that the traffic stop
was unreasonably prolonged, constituting
an unlawful seizure. Second, he argues
that the troopers’ examination of the vehicle’s undercarriage was a search unjustified by probable cause. Third, he argues
that the troopers’ manipulation and removal of the black plastic bags constituted a
physical trespass—and therefore, a seizure—again unsupported by probable
cause. We conclude that reasonable suspicion existed and supported extension of
the stop. We also conclude that external,
visual examination of the vehicle’s undercarriage did not require probable cause.

5a

674

955 FEDERAL REPORTER, 3d SERIES

Finally, discovery of the black plastic bundle secreted above the spare wheel added
to the overall level of suspicion and provided the probable cause necessary to seize
the bundle and arrest the occupants.
A.

Reasonable Suspicion

[1–4] The Fourth Amendment protects
against ‘‘unreasonable searches and seizures,’’ U.S. Const. amend. IV, and a traffic stop constitutes a seizure of the vehicle’s occupants, Brendlin v. California, 551
U.S. 249, 255, 127 S.Ct. 2400, 168 L.Ed.2d
132 (2007). As such, a traffic stop must be
justified by ‘‘reasonable suspicion TTT that
criminal activity may be afoot.’’ United
States v. Arvizu, 534 U.S. 266, 273, 122
S.Ct. 744, 151 L.Ed.2d 740 (2002) (quotation marks and citation omitted). ‘‘When
an officer makes a routine traffic stop, the
officer is entitled to conduct an investigation reasonably related in scope to the
circumstances that initially prompted the
stop.’’ United States v. Lyons, 486 F.3d
367, 371 (8th Cir. 2007) (quotation marks
and citation omitted). But even a lawful
traffic stop ‘‘can become unlawful if it is
prolonged beyond the time reasonably required to complete [the] mission’’ of the
seizure. Illinois v. Caballes, 543 U.S. 405,
407, 125 S.Ct. 834, 160 L.Ed.2d 842 (2005).
‘‘[T]he tolerable duration of police inquiries
in the traffic-stop context is determined by
the seizure’s ‘mission’—to address the traffic violation that warranted the stop and
attend to related safety concerns.’’ Rodriguez v. United States, 575 U.S. 348, 354,
135 S.Ct. 1609, 191 L.Ed.2d 492 (2015)
(quoting Caballes, 543 U.S. at 407, 125
S.Ct. 834). ‘‘Authority for the seizure thus
ends when tasks tied to the traffic infraction are—or reasonably should have
been—completed.’’ Id.
[5] A delay that ‘‘prolongs—i.e., adds
time to—the stop,’’ id. at 357, 135 S.Ct.
1609, to conduct investigatory actions un-

related to the purposes of the stop is
impermissible unless it is supported by
reasonable suspicion. Sanchez does not
dispute that Nietert’s initial decision to
conduct the traffic stop was lawful. See
United States v. Sanchez, 572 F.3d 475,
478–79 (8th Cir. 2009) (affirming validity
of a stop based on officer’s reasonable
suspicion that temporary license plate violated state vehicle registration statute).
Instead, he asserts that Nietert exceeded
his authority by extending the seizure.
The government concedes that the decision to conduct the canine sniff prolonged the traffic stop but argues the
extension was supported by reasonable
suspicion.
[6] ‘‘[A]s a general matter determinations of reasonable suspicion and probable
cause should be reviewed de novo on appeal. TTT [but] a reviewing court should
take care both to review findings of historical fact only for clear error and to give
due weight to inferences drawn from those
facts by resident judges and local law enforcement officers.’’ Ornelas v. United
States, 517 U.S. 690, 699, 116 S.Ct. 1657,
134 L.Ed.2d 911 (1996); see also Arvizu,
534 U.S. at 273, 122 S.Ct. 744; United
States v. Dortch, 868 F.3d 674, 680 (8th
Cir. 2017) (‘‘[O]ur review on this issue
looks to the totality of the circumstances,
‘allow[ing] officers to draw on their own
experience and specialized training to
make inferences from and deductions
about the cumulative information available
to them.’ ’’ (alteration in original) (quoting
Arvizu, 534 U.S. at 273, 122 S.Ct. 744)).
The reasonable suspicion inquiry asks
‘‘whether the detaining officer has a particularized and objective basis for suspecting
legal wrongdoing.’’ United States v. Walker, 771 F.3d 449, 450 ((8th Cir. 2014) (quotation marks and citation omitted)).
[7–10] ‘‘The concept of reasonable suspicion is somewhat abstract,’’ but ‘‘the like-

6a

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

lihood of criminal activity need not rise to
the level required for probable cause, and
it falls considerably short of satisfying a
preponderance of the evidence standard.’’
Arvizu, 534 U.S. at 274, 122 S.Ct. 744.
Because the determination as to reasonable suspicion must be based on the ‘‘totality of the circumstances,’’ id. at 273, 122
S.Ct. 744, courts may not view individual
elements of suspicion in isolation. In fact,
‘‘Terry TTT precludes this sort of divideand-conquer analysis.’’ Id. at 274, 122 S.Ct.
744. Rather, we must view the individual
elements in context, i.e., in light of one
another, and give ‘‘due weight’’ to the officer’s inferences when assessing the overall
level of suspicion. Ornelas, 517 U.S. at 699,
116 S.Ct. 1657. As such, ‘‘[a] determination
that reasonable suspicion exists TTT need
not rule out the possibility of innocent
conduct.’’ Arvizu, 534 U.S. at 277, 122 S.Ct.
744.
[11] The district court concluded that
Nietert had reasonable suspicion based on
several specific and interrelated facts.
Viewing the facts collectively and in light
of one another, and acknowledging that
arguably innocent factors can be suspicious in context, we believe Nietert permissibly concluded there was a ‘‘particularized and objective basis’’ for suspecting
that Sanchez was involved in wrongdoing
beyond committing traffic violations. First,
Nietert saw an out-of-state truck with paper tags driving in the middle of the night.
Upon stopping the truck, he discovered
neither adult in the vehicle had a driver’s
license and the paper tags were expired.
Next, there was some confusion as to the
name of the owner; Fuentes was unsure of
the owner’s real name, and the name on
the insurance card did not match the information relayed to the officer. Nietert also
learned that the purported purpose for the
trip was a two-to-three-day painting job,
but no supplies were present other than

675

one can of paint. Nietert learned all of this
after having his suspicion piqued by the
fact that Sanchez and his partner gave
different names (Jimmy and Jose) even if
one name was later described as a nickname. Finally, Nietert thought it unusual
that an unlicensed driver would bring
small children and an unlicensed partner/significant other with him for the midnight travel in the unlicensed vehicle for a
short term out-of-state job.
A reasonable officer could view this collection of facts as suspicious. A reasonable
officer could find it inherently suspicious
that someone would lend their truck to
unlicensed drivers, especially if one of
those drivers could not readily name that
owner. It is more suspicious that the owner of a vehicle would do so when tags are
expired and the borrowers are driving out
of state through the middle of the night.
The act of lending a vehicle in such a
situation suggests a fair amount of risk
and possible future hassle for the drivers
and the vehicle owner. An officer reasonably could expect clarity from drivers as to
vehicle ownership and could view it as
suspicious that drivers could not provide
full details, especially when given the timing of the stop and the absence of drivers’
licenses or current plates.
In addition, it is suspicious that, for a
two-to-three-day painting job with supplies
and paint waiting at the destination, a
worker would throw in a single can of
paint. The government argues the case is
analogous to United States v. Murillo-Salgado, 854 F.3d 407, 416 (8th Cir.), cert.
denied, ––– U.S. ––––, 138 S. Ct. 245, 199
L.Ed.2d 157 (2017), where we upheld a
finding of reasonable suspicion based in
part on the officer’s observation that the
amount of wiring in the vehicle appeared
insufficient to complete the job that was
the stated purpose of the trip. Sanchez
argues that the government’s reliance on

7a

676

955 FEDERAL REPORTER, 3d SERIES

Murillo-Salgado is misplaced. Sanchez emphasizes that, unlike the passengers in
Murillo-Salgado, who offered no explanation for their lack of equipment and materials, Fuentes explained that the necessary
equipment was located at the job. The
driver in Murillo-Salgado also provided
conflicting information about his occupation and about who was paying for the
rental vehicle.
Here, we agree with the government
that the lack of sufficient painting equipment reasonably can be viewed as adding
to the overall level of suspicion. As in
Murillo-Salgado, ownership and control of
the vehicle were unclear. Regardless, we
do not believe it necessary to finely parse
distinctions between the present case and
Murillo-Salgado. See Ornelas, 517 U.S. at
698, 116 S.Ct. 1657 (‘‘It is true that because the mosaic which is analyzed for a
reasonable-suspicion or probable-cause inquiry is multi-faceted, one determination
will seldom be a useful precedent for another.’’ (citation and internal quotation
marks omitted)). Rather, a reasonable officer could view the decision to bring along a
single gallon of paint for a two-to-three
day job as an awkward attempt to bolster
a cover story. Giving due weight to the
officer’s interpretation of the situation, the
explanation proferred by Fuentes does not
dispel suspicion. In this regard, the reasonableness of different inferences and
narratives flowing from the presence of
one can, and the officer’s permissible view
of those narratives, is more convincing
than arguable similarities or differences
with the Murillo-Salgado case. We must
give ‘‘due weight’’ to the officer’s reasonable inferences and his discounting of the
ostensibly innocent explanation as to the
can of paint. Ornelas, 517 U.S. at 699, 116
S.Ct. 1657.
Sanchez, no doubt, is correct that there
are possible innocent explanations for

these various individual factors, such as
limited housing, transportation, or childcare options. But, as the Court has held,
even though ‘‘each of these factors alone is
susceptible of innocent explanation, and
some factors are more probative than others[,] TTT together TTT they sufficed to
form a particularized and objective basis.’’
Arvizu, 534 U.S. at 277, 122 S.Ct. 744. We
conclude that such explanations, in context,
are neither conclusive nor consistent with
the officers’ reasonable skepticism.
These suspicious facts suggested to Officer Nietert the possible transportation of
contraband, as demonstrated by his decision to call for the dog. This suspicion is
consistent with the midnight drive and the
apparent desire to avoid detection. Importantly, this suspicion better explains why
the not-readily-identified owner of a vehicle would loan it to unlicensed drivers to
take it out of state. And, the applicable
standard, after all, is less than a preponderance of the evidence.
[12] Finally, Nietert’s statement that
he wanted to search the truck because the
situation made the ‘‘hair on the back of
[his] neck stand[ ] up for some reason,’’
does not show that his suspicion was insufficiently particularized. While it is true
that an ‘‘officer’s reliance on a mere
‘hunch’ is insufficient,’’ Arvizu, 534 U.S. at
274, 122 S.Ct. 744, we do not view Nietert’s comments to his ride-along passenger as an attempted articulation of a legal
standard. And for the reasons just discussed, we do not view Nietert as having
acted on an ‘‘inchoate and unparticularized
suspicion or hunch.’’ United States v. Sokolow, 490 U.S. 1, 7, 109 S.Ct. 1581, 104
L.Ed.2d 1 (1989) (citation and internal quotation marks omitted).
B.

Privacy Interest in the Vehicle
Undercarriage/Seizure

[13–15] We also conclude that, absent
a physical trespass and during an other-

8a

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

wise lawfully extended stop, an officer may
look at the undercarriage of a vehicle without probable cause. Officers commonly
look through windows and glance at wheel
wells when sizing up the scene of stop,
often for a combination of safety and investigatory reasons. It is well established that
motorists have no recognized privacy interest in the exterior of their vehicles, or
the interior spaces visible to the public.
See Texas v. Brown, 460 U.S. 730, 740, 103
S.Ct. 1535, 75 L.Ed.2d 502 (1983) (‘‘There
is no legitimate expectation of privacy
shielding that portion of the interior of an
automobile which may be viewed from outside the vehicle by either inquisitive passersby or diligent police officers.’’ (internal
citations omitted)). And, officers may
crouch and change position when conducting an exterior examination or use a flashlight to artificially illuminate the area being viewed. See id. (‘‘[T]he fact that [an
officer] changed [his] position and bent
down at an angle so [he] could see what
was inside [a] car is irrelevant to Fourth
Amendment analysis. The general public
could peer into the interior TTT from any
number of angles; there is no reason [the
officer] should be precluded from observing as an officer what would be entirely
visible to him as a private citizen.’’); see
also United States v. Bynum, 508 F.3d
1134, 1137 (8th Cir. 2007) (‘‘The act of
looking through a car window is not a
search for Fourth Amendment purposes
because ‘a person who parks a car—which
necessarily has transparent windows—on
private property does not have a reasonable expectation of privacy in the visible
interior of his car.’ ’’ (quoting United
States v. Hatten, 68 F.3d 257, 261 (8th Cir.
1995))).
Without controlling authority, Sanchez
argues the undercarriage is distinct from
the rest of the exterior, or the visible
interior, of a vehicle because motorists do
not expect the public to view the undercar-

677

riage of their vehicles. Sanchez argues that
because drivers would be surprised and
concerned to see a stranger looking under
their cars, there must exist a reasonable
and recognizable expectation of privacy.
But, the same could be said of the floor of
a vehicle’s interior when an officer must
stand close to the vehicle to peer in or
assume an awkward position to obtain a
view. The sole test cannot be the level of
concern a person would express at seeing a
stranger in a parking lot looking in or
under their vehicle.
Sanchez distinguishes ‘‘vehicle undercarriage’’ cases cited by the government as
arising only in the context of border checkpoint stops. See, e.g., United States v.
Rascon-Ortiz, 994 F.2d 749, 754 (10th Cir.
1993) (‘‘The undercarriage is part of the
car’s exterior, and as such, is not afforded
a reasonable expectation of privacy. The
fact that [an officer] knelt down to look
under the car does not alter this finding.
An officer may shift his position to obtain a
better vantage point without transforming
a visual inspection into a search, even
though the agent’s purpose is to look for
contraband.’’). But, the material holding in
Rascon-Ortiz did not appear to depend
upon the border checkpoint context. That
context, of course, provided justification
for the stop, but the court, ‘‘tak[ing] guidance from the relevant search and seizure
law’’ held ‘‘the brief visual examination of
the vehicle’s undercarriage was not a
search.’’ Id.
Further, the parties cite no case in
which our own circuit has distinguished
the undercarriage of a vehicle as outside
the scope of a permissible exterior examination. Cf. United States v. Sanchez, 572
F.3d 475, 477 (8th Cir. 2009) (noting the
fact of an undercarriage examination without identifying its legality as an issue in
the case, stating that an officer ‘‘looked at
the undercarriage of the minivan and no-

9a

678

955 FEDERAL REPORTER, 3d SERIES

ticed fresh undercoating spray TTTT commonly used to conceal compartments in a
vehicle’s undercarriage for transporting illegal drugs’’). And, although the Supreme
Court has relied on a theory of physical
trespass to strike the warrantless mounting of a GPS tracker on a vehicle’s undercarriage, the Court has not held the simple
act of viewing a vehicle’s undercarriage
requires probable cause. See United States
v. Jones, 565 U.S. 400, 407–08, 132 S.Ct.
945, 181 L.Ed.2d 911 (2012).
At the end of the day, and as a practical
matter, drawing a line between permissible
and impermissible areas of a vehicle’s exterior that officers may observe absent
physical trespass would seem wholly unworkable. Vehicle configurations vary substantially and officers’ inspections of undercarriages will involve varying levels of
physical contortion. A distinction that
would permit officers to look in windows,
crane their necks, stand on their toes,
crouch to look in wheel wells, and shine
flashlights at night but that would preclude them from looking ‘‘too far’’ under a
vehicle is too difficult to articulate. Separating the undercarriage from the rest of
the vehicle’s exterior necessarily entails
defining a subjective dividing line that will
vary in each situation and leave officers
little guidance as to the limits of their
authority.
[16] Finally, Sanchez argues that, even
if officers could view the underside of the
truck, they could not seize the black plastic
bundle because, without physically invading the opaque wrapping, they could not
have known its contents. Sanchez, therefore, characterizes discovery of the bundle
as a physical trespass rather than an exterior vehicle examination. This argument
overly discounts the permissible inferences
arising from the cumulative information
officers had received. Upon seeing through
the openings in the spare wheel and notic-

ing something wrapped in black plastic,
this new information added to the totality
of the circumstances already known to officers, raising the level of suspicion they
possessed. See, e.g., United States v. Pulido-Ayala, 892 F.3d 315, 319 (8th Cir. 2018)
(holding physical trespass into a vehicle
constitutional when trespass occurred after
officers received new information that provided probable cause). Here, before any
physical trespass, officers possessed probable cause and, therefore, a legal basis for
the subsequent seizure of the package. In
fact, Nietert testified that he previously
had encountered other motorists with contraband similarly situated. In this situation, officers did not need to know with
certainty, or see, the contents of the bundle to have probable cause.
We affirm the judgment of the district
court.
KELLY, Circuit Judge, dissenting.
Any extension of a traffic stop must be
justified by ‘‘reasonable suspicion of criminal activity.’’ Rodriguez v. United States,
575 U.S. 348, 358, 135 S.Ct. 1609, 191
L.Ed.2d 492 (2015). Reasonable suspicion
requires that a police officer ‘‘be able to
point to specific and articulable facts
which, taken together with rational inferences from those facts, reasonably warrant
further investigation.’’ United States v.
Woods, 829 F.3d 675, 679 (8th Cir. 2016)
(cleaned up); see also United States v.
Arvizu, 534 U.S. 266, 273, 122 S.Ct. 744,
151 L.Ed.2d 740 (2002) (explaining that
reasonable suspicion requires ‘‘a particularized and objective basis for suspecting
legal wrongdoing’’ (cleaned up)). Moreover,
any further investigation must be ‘‘reasonably related in scope to the circumstances
which justified the interference in the first
place.’’ Terry v. Ohio, 392 U.S. 1, 20, 88
S.Ct. 1868, 20 L.Ed.2d 889 (1968). Viewing

10a

U.S. v. SANCHEZ
Cite as 955 F.3d 669 (8th Cir. 2020)

the evidence in its totality, the facts in this
case do not meet these standards.
In my view, state trooper Nietert violated Sanchez’s Fourth Amendment rights by
extending the stop to conduct a canine
sniff without reasonable suspicion of drug
activity. Sanchez driving without a license
in a borrowed truck with recently expired
tags justified Nietert issuing a citation for
traffic violations or impounding the truck
until its owner arrived to collect it—but a
canine sniff required more. A canine sniff
goes beyond the ‘‘ordinary inquiries’’ incident to a traffic stop and requires ‘‘independent[ ]’’ justification. Rodriguez, 575
U.S. at 355, 357, 135 S.Ct. 1609. Nietert’s
decision to extend Sanchez’s detention
could be justified only by reasonable suspicion that Sanchez was engaged in criminal
activity that merited further investigation
with a canine sniff. The officer’s ‘‘unparticularized suspicion or ‘hunch’ ’’ was not
enough. See Terry, 392 U.S. at 27, 88 S.Ct.
1868.
The district court concluded that Nietert
had reasonable suspicion based on several
specific facts. Nietert observed that Sanchez seemed concerned about being pulled
over. He found it suspicious that Sanchez
appeared to lack painting equipment beyond the single visible can of paint. He
also thought it was odd that Sanchez would
bring his girlfriend and children along for
the trip. Nietert was also concerned that
neither Sanchez nor Fuentes had a driver’s
license, that the vehicle belonged to someone else, and that the vehicle’s paper tags
were expired. Finally, the district court
noted that the video footage appeared to
show inconsistent answers from Sanchez
and Fuentes regarding Sanchez’s first
name.
Individually, these facts are not inherently suspicious. But even when viewed
collectively, they do not create a ‘‘particularized and objective basis’’ for suspecting

679

that Sanchez was involved in wrongdoing
beyond committing traffic violations. See
Arvizu, 534 U.S. at 273, 122 S.Ct. 744. That
Sanchez, who spoke very little English,
appeared ‘‘concerned’’ about being pulled
over by a state trooper is hardly surprising. Nietert testified that Sanchez’s level
of concern was consistent with how many
people appear when stopped by police. See
United States v. Jones, 606 F.3d 964, 967
(8th Cir. 2010) (per curiam) (finding that
circumstances ‘‘shared by countless, wholly
innocent persons’’ do not add weight to
reasonable suspicion analysis). Nietert did
not describe Sanchez as ‘‘nervous,’’ nor did
he witness any behavior that would indicate unusual nervousness. Absent ‘‘the
kind of ‘unusual,’ ‘exceptional,’ or more
objective manifestations of nervousness’’
that might support a finding of reasonable
suspicion when combined with other specific facts, Sanchez’s look of ‘‘concern’’ carries little to no weight. See United States
v. Jones, 269 F.3d 919, 929 (8th Cir. 2001)
(expressing skepticism ‘‘of the objective
suspicion supplied by generic claims that a
Defendant was nervous or exhibited nervous behavior after being confronted by
law enforcement officials’’).
Nietert also did not explain what was
suspicious about Sanchez bringing Fuentes
and his children along on the trip. Nietert
acknowledged that they had luggage in the
truck, consistent with their account that
they were taking a brief trip to Little
Rock. And as the court notes, Sanchez’s
family might have been traveling together
that night due to a lack of access to housing or childcare. In any event, there was
no inconsistency between Fuentes’s explanation of the trip’s purpose and Sanchez’s
explanation. When Nietert questioned Sanchez outside of the vehicle and away from
Fuentes, he confirmed (albeit with some
difficulty due to the language barrier) that
he was a painter and that he had borrowed

11a

680

955 FEDERAL REPORTER, 3d SERIES

the truck from his friend to perform a
painting project in Little Rock. All of this
was consistent with Fuentes’s account.
There is nothing in the record that would
have objectively suggested that Sanchez’s
narrative was false. See United States v.
Beck, 140 F.3d 1129, 1137 (8th Cir. 1998)
(finding defendant’s explanation for the
trip was not suspicious where officer had
‘‘no reason to suspect that [the] explanation was untrue’’).
There was some inconsistency in how
Fuentes and Sanchez described Sanchez’s
first name, but Nietert did not say this
raised any suspicion when he testified at
the suppression hearing. Fuentes readily
provided a reasonable explanation when
Nietert asked why she had said Sanchez’s
first name was Jose and Sanchez said his
name was Jimmy. From the record, it
appears Nietert accepted the explanation
at the time, and understandably so.
The court places great weight on Nietert’s observation that Sanchez appeared
to lack sufficient painting equipment for
the job he described. It is true that in
United States v. Murillo-Salgado we upheld a finding of reasonable suspicion in
part based on the officer’s observation that
the amount of wiring in the vehicle appeared insufficient to complete the job that
was the stated purpose of the trip. 854
F.3d 407, 416 (8th Cir. 2017). But unlike
the passengers in Murillo-Salgado, who offered no explanation for their lack of
equipment and materials, Fuentes explained that the necessary equipment was
located at the job site—a house in Little
Rock. The driver in Murillo-Salgado also
provided conflicting information about his
occupation and about who was paying for
the rental vehicle. Here, there is nothing
in the record that would have suggested
that either Fuentes or Sanchez was being
untruthful.

And although we must give ‘‘due weight’’
to an officer’s reasonable inferences, we
should not credit inferences that an officer
never made. Nietert testified it ‘‘did not
appear to [him] that they were going to do
a paint job at all with just the one paint
can.’’ But he never testified that he believed the inclusion of one can of paint was
a ruse or an effort to prop up a cover
story. I would not rely on an inference the
officer did not make—particularly when
Sanchez provided a reasonable explanation
for his lack of painting materials.
Finally, just before conducting the canine sniff, Nietert commented that the situation made the ‘‘hair on the back of [his]
neck stand[ ] up for some reason’’—just
the type of nebulous misgiving, or ‘‘hunch,’’
that is insufficient to create reasonable
suspicion. See Terry, 392 U.S. at 27, 88
S.Ct. 1868. I agree that Nietert’s comment
should not be viewed as an attempted articulation of a legal standard. But I also
would not ignore it as it is evidence of
Nietert’s inability to articulate ‘‘a particularized and objective basis for suspecting
legal wrongdoing.’’ See Arvizu, 534 U.S. at
273, 122 S.Ct. 744 (cleaned up).
Considering the totality of the circumstances, I do not view the collection of
facts in this case as creating reasonable
suspicion that justified extending the traffic stop to conduct the canine sniff. Because the subsequent discovery of methamphetamine stemmed from this Fourth
Amendment violation, the evidence seized
should have been suppressed.
For these reasons, I respectfully dissent.
I would not reach the other issues addressed in the court’s opinion.

,

12a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 1 of 15 PageID #: 112

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HOT SPRINGS DIVISION
UNITED STATES OF AMERICA

v.

PLAINTIFF

Case No. 6:16-cr-60027-001

JOSE SANCHEZ

DEFENDANT

ORDER
Before the Court is Defendant Jose Sanchez’s (“Defendant”) Motion to Suppress. (ECF
No. 28). The Government filed a response. (ECF No. 29). On July 31, 2017, the Court held a
hearing on the motion. 1 On August 11, 2017, the Government and Defendant each filed
supplemental briefs. 2 (ECF Nos. 38-39). The Court finds the matter ripe for consideration.
I. BACKGROUND
Defendant is charged with one count of conspiring to distribute a mixture or substance
containing a detectible amount of methamphetamine, a Schedule II controlled substance, in
violation of 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 846. Defendant is also charged with one count
of knowingly or intentionally possessing with intent to distribute 50 grams or more of
methamphetamine, a Schedule II controlled substance, in violation of 21 U.S.C. §§ 841(a)(1) and
841(b)(1)(A)(viii). Defendant is also charged with one count of knowingly and intentionally
traveling in interstate commerce with the intent to promote, manage, establish, carry on, or

1

At the hearing, the Government offered into evidence the dash-cam footage from Trooper Nietert’s patrol car and
Trooper Nietert’s testimony. Defendant offered his own testimony into evidence.
2

The parties’ original briefs focused primarily on the propriety of the canine sniff of Defendant’s vehicle. The
Government informed the Court at the July 31, 2017 motion hearing that it was not relying on the canine sniff for
probable cause, and that the parties were instead contesting other issues related to the search. At the conclusion of the
motion hearing, the Court ordered the parties to file supplemental briefs addressing the new issues.

13a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 2 of 15 PageID #: 113

facilitate the promotion, management, or carrying on, of an unlawful activity, in violation of 18
U.S.C. § 1952(a)(3)(A).
On May 26, 2016, Arkansas State Police Trooper Derek Nietert observed a black Dodge
Ram truck traveling on I-30 near Malvern, Arkansas. Trooper Nietert observed the vehicle to have
temporary paper tags instead of a license plate. Trooper Nietert was unable to read the vehicle’s
paper tags and initiated a traffic stop. After stopping the truck, Trooper Nietert discovered that the
paper tags had expired. Trooper Nietert made contact with the vehicle’s occupants and found
Defendant in the driver’s seat, co-defendant Vanessa Fuentes (“Fuentes”) in the passenger’s seat,
and two small children in the back seats. Trooper Nietert attempted to communicate with
Defendant but encountered difficulties due to a language barrier. Trooper Nietert observed
Defendant to appear concerned. Fuentes informed Trooper Nietert that Defendant did not speak
English and did not have a driver’s license. Trooper Nietert requested the vehicle’s paperwork,
and Fuentes produced an insurance card that showed that the vehicle did not belong to Defendant
or Fuentes.
Trooper Nietert asked Fuentes to exit the vehicle and come to the front of the patrol car.
Trooper Nietert asked Fuentes who the vehicle belonged to, and she replied that it belonged to a
friend of Defendant’s, but that she did not know his name. Fuentes informed Trooper Nietert that
Defendant’s name was Jose Sanchez, provided his date of birth, and stated that they were traveling
from Dallas, Texas to Little Rock, Arkansas because Defendant was contracted to paint a house
the next day. Fuentes told Trooper Neitert that they planned to stay in a hotel in Little Rock, but
did not know what hotel.
Trooper Nietert requested that Defendant move his vehicle to the next exit ramp because
the vehicles were stopped in a dangerous location along the interstate. While moving the vehicles,

2

14a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 3 of 15 PageID #: 114

Trooper Nietert called in a criminal-history search for Defendant. After Trooper Nietert and
Defendant relocated their vehicles, Trooper Nietert asked Defendant to exit the truck. Trooper
Nietert attempted to converse with Defendant but continued to encounter difficulties due to the
language barrier. However, Defendant was able to understand a few of Trooper Nietert’s questions
and told Trooper Nietert that his name was Jimmy Sanchez, that he was traveling to Arkansas to
work as a painter, and that his friend Miguel owned the vehicle.
The dispatch officer informed Trooper Nietert that he could not locate Defendant’s name
for the background search in Texas, and Trooper Nietert provided Defendant’s middle name 3 for
the dispatch officer to run a more specific criminal-history search. Trooper Nietert spoke to
Fuentes again and informed her that the vehicle’s paper tags were expired. Trooper Nietert asked
Fuentes about the discrepancy regarding her and Defendant’s answers regarding Defendant’s
name, and Fuentes’ response was inaudible. At this time, the dispatcher notified Trooper Nietert
that the criminal-history search for Defendant came back with no results.
Trooper Nietert asked Fuentes for permission to search the vehicle for contraband. Fuentes
refused, and Trooper Nietert informed her that he was going to have a canine unit sniff the vehicle
for drugs and guns. Corporal Mike Bowman, who had previously arrived on the scene, lowered
the tailgate of Defendant’s vehicle and deployed Ringo, his drug-sniffing canine. Corporal
Bowman attempted to lead Ringo clockwise around the vehicle, but Ringo jumped into the truck
bed, sniffed, and exited the back of the truck. Ringo then sniffed the rear of the vehicle and under
the tailgate. Ringo circled and sniffed the vehicle for approximately two minutes, and then
Corporal Bowman removed Ringo from the scene. Corporal Bowman indicated to Trooper Nietert
that Ringo alerted multiple times on the vehicle.

3

After review of the dash-cam video of the stop, the Court is unsure how and when Trooper Nietert obtained
Defendant’s middle name.

3

15a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 4 of 15 PageID #: 115

Trooper Nietert informed Defendant and Fuentes that the troopers no longer needed their
consent to search the vehicle because Ringo alerted to the presence of narcotics. Corporal Bowman
climbed into the bed of the truck and began to search. Trooper Nietert allowed Defendant and
Fuentes to remove the children from the truck, and the troopers continued their search. Corporal
Bowman checked underneath the back of the truck and observed black plastic bags hidden in the
rim of the spare tire. Corporal Bowman emerged from underneath the truck and informed Trooper
Nietert that he had discovered suspected drugs. The troopers instructed Defendant and Fuentes to
place the children back in the vehicle. The troopers then placed Defendant and Fuentes under
arrest. The troopers moved the vehicle to another location and removed the black plastic bags
from behind the vehicle’s spare tire. The troopers discovered four Tupperware containers inside
the bags, containing a total of 1,844 grams of actual methamphetamine.
Defendant moves the Court to suppress all physical evidence seized from the vehicle, as
well as any evidence or statements obtained, directly or indirectly, because of any unlawfully
seized evidence. Specifically, Defendant argues that the canine’s sniff of the truck constituted an
unlawful search, that the troopers lacked probable cause to search the vehicle, and that the search
occurred for an unreasonable length of time.
Prior to the July 31, 2017 motion hearing, the Government conceded that the canine sniff
did not provide the troopers with probable cause for a search because the canine handler did not
follow proper procedure during the canine sniff. At the hearing, the Government argued that the
search did not violate Defendant’s constitutional rights because the troopers discovered the plastic
bags underneath the vehicle, which, as part of the vehicle’s exterior, does not enjoy Fourth
Amendment protections. The Government argued in the alternative that if the search violated
Defendant’s Fourth Amendment rights, the violation is de minimus and the seizure should be

4

16a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 5 of 15 PageID #: 116

upheld under the inevitable-discovery doctrine. 4
II. DISCUSSION
As a preliminary matter, the Court must first determine whether Defendant has standing to
challenge the search. If the Court finds that he does, the Court will then determine whether the
search of the vehicle infringed on Defendant’s constitutional rights.
A. Standing to Challenge Search
As a preliminary matter, the Court must determine whether Defendant has standing to
challenge the search. “The defendant moving to suppress bears the burden of proving he had a
legitimate expectation of privacy that was violated by the challenged search.” United States v.
Muhammad, 58 F.3d 353, 355 (8th Cir. 1995). “To establish a legitimate expectation of privacy,
the defendant must demonstrate (1) a subjective expectation of privacy; and (2) that the subjective
expectation is one that society is prepared to recognize as objectively reasonable.” Id.
As a general rule, “a person has no reasonable expectation of privacy in an automobile
belonging to another.” United States v. Kiser, 948 F.2d 418, 424 (8th Cir. 1991). However, by
presenting “some evidence of consent or permission from the lawful owner,” a defendant may
establish an objectively reasonable expectation of privacy in another person’s vehicle.
Muhammad, 58 F.3d at 355.
Defendant was certainly in possession of the truck at the time he was pulled over. It is
likewise undisputed in this case that neither Defendant nor Fuentes owned the truck or were listed
on its paperwork as registered users. At the motion hearing, Defendant took the stand for the
limited purpose of testifying that his friend Miguel Mendoza (“Mendoza”) owned the truck and
gave him permission to drive it from Dallas, Texas, to Little Rock, Arkansas, on May 26, 2016.

4

The Court will not consider this argument in light of its findings below.

5

17a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 6 of 15 PageID #: 117

The crux of the Government’s argument is that Defendant’s own, self-serving testimony
that Mendoza allowed him to drive the truck is insufficient to establish “consent or permission
from the lawful owner.” The Government suggests that Defendant should have instead called
Mendoza to testify or obtained his statement through other means, such as an affidavit or
declaration. The Government concludes that because Defendant did not do so, he has failed to
demonstrate that he had Mendoza’s consent or permission to drive the truck. Defendant argues
that the Eighth Circuit requires “some evidence of consent or permission,” but does not expressly
require any particular type of evidence to satisfy this burden. Defendant argues that he presented
admissible evidence in the form of Defendant’s testimony, which is sufficient to meet the
“affirmative showing” required by the Eighth Circuit.
The Government correctly states that Defendant could have satisfied his burden by
producing Mendoza as a witness. However, Eighth Circuit caselaw does not expressly require that
the vehicle’s owner testify, but instead requires only “some evidence of consent or permission
from the lawful owner.” Muhammad, 58 F.3d at 355. The Government points to no authority
discussing the sufficiency of a defendant’s own testimony regarding consent or permission from a
vehicle’s lawful owner. It appears that the Eighth Circuit has not addressed the issue under facts
similar to those in this case. 5
The United States District Court for the Southern District of Iowa has faced a similar issue.
In United States v. Villegas, a defendant attempted to establish standing to challenge the
constitutionality of a search of an absent third party’s vehicle by vaguely testifying that the car’s

5
The Government cites to United States v. Anguiano, 795 F.3d 873, 878 (8th Cir. 2015), for the proposition that
merely asserting a vehicle owner’s name is insufficient to make an affirmative showing of consensual possession.
However, Anguiano is distinguishable from the case at bar because the Anguiano defendant was a passenger of the
vehicle rather than a driver, only knew the first name of the vehicle’s owner, and provided no other details as to the
owner’s identity. Id. at 875.

6

18a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 7 of 15 PageID #: 118

owner loaned the vehicle to him. No. 4:05-cr-0177, 2006 WL 335444, at *3 (S.D. Iowa Feb. 13,
2006). The district court expressly noted that the defendant did not testify as to the car owner’s
identity, the terms of the loan, or the scope of permission for the use of the car. Id. at *4. The
court concluded that the defendant’s testimony was insufficient to satisfy the burden of proving a
legitimate expectation of privacy in the car because the defendant “did not present more than
cursory evidence.” Id.
In this case, Defendant testified that Miguel Mendoza owned the truck and gave him
permission to drive the truck from Dallas, Texas, to Little Rock, Arkansas, on May 26, 2016. The
Court finds that Defendant’s testimony revealed the vehicle owner’s identity, the terms of the loan,
and/or the scope of permission for Defendant’s use of the car. Thus, Defendant’s testimony
touched on all the details contemplated by the Villegas court. The Court finds that Defendant
presented more than “cursory” evidence that he had consent or permission from the vehicle’s
lawful owner at the time of the stop. As discussed above, the Eighth Circuit requires only “some
evidence of consent or permission,” Muhammad, 58 F.3d at 355, and the Court finds that
Defendant has satisfied this burden. Accordingly, the Court finds that Defendant possessed an
objectively reasonable expectation of privacy in the vehicle at the time of the stop, and thus
Defendant has standing to challenge the constitutionality of the search.
B. Constitutionality of Search
Defendant argues that the stop and subsequent search of the vehicle violated his Fourth
Amendment rights in two respects: first, that the stop was unreasonably and unlawfully prolonged,
and second, that the search itself was unconstitutional. The Court will address each argument in
turn.
1. Length of the Stop

7

19a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 8 of 15 PageID #: 119

Defendant argues that the troopers unreasonably prolonged the traffic stop by extending it
beyond a time reasonably required to complete the purpose of the stop. The Government argues
that the stop’s length was reasonable.
The Fourth Amendment prohibits unreasonable searches and seizures. “A traffic stop
constitutes a seizure of [a] vehicle’s occupants, including any passengers.” United States v.
Sanchez, 572 F.3d 475, 478 (8th Cir. 2009) (citing Brendlin v. California, 551 U.S. 249, 255-57,
(2007)). “Any traffic violation, however minor, provides probable cause for a traffic stop.” United
States v. Wright, 512 F.3d 466, 471 (8th Cir. 2008) (citation and internal quotes omitted).
“Once the stop of a vehicle has occurred, a police officer may detain the offending motorist
while the officer completes a number of routine but somewhat time-consuming tasks related to the
traffic violation, such as computerized checks of the vehicle’s registration and the driver’s license
and criminal history, and the writing up of a citation or warning.” United States v. Barragan, 379
F.3d 524, 528-29 (8th Cir. 2004) (internal quotation marks omitted). “While the officer performs
these tasks, he may ask the occupants routine questions, such as the destination and purpose of the
trip, and the officer may act on whatever information the occupants volunteer.” United States v.
Olivera-Mendez, 484 F.3d 505, 509 (8th Cir. 2007). Whether the length of a particular detention
is reasonable is a fact-intensive question, and there is no per se time limit on all traffic stops. 6 Id.
at 510.
“Once this initial investigation is finished, however, the purpose of the traffic stop is
complete and further detention of the driver or vehicle would be unreasonable, unless something
that occurred during the traffic stop generated the necessary reasonable suspicion to justify a
further detention or unless the continued encounter is consensual.” United States v. Flores, 474

6

For example, when there are complications in carrying out the traffic-related purposes of the stop, police may
reasonably detain a driver for a longer duration than when a stop is strictly routine. Id.

8

20a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 9 of 15 PageID #: 120

F.3d 1100, 1103 (8th Cir. 2007). If the driver’s responses and the circumstances give rise to
suspicions unrelated to the traffic offense, an officer may broaden his inquiry and satisfy those
suspicions. See United States v. Cummins, 920 F.2d 498, 502 (8th Cir. 1990).
Defendant does not argue that the stop itself was improper, or that the first twenty minutes
of the stop—during which Trooper Nietert performed an initial investigation—exceeded a
reasonable amount of time. Instead, Defendant argues without citing to supporting authority that
once the second criminal-history check came back, the purpose of the stop was complete and that
the troopers unreasonably extended the stop when they initiated a canine sniff and subsequent
search of the vehicle without probable cause or a reasonable suspicion of criminal activity.
At the motion hearing, the Government conceded that roughly twenty minutes passed from
the time the troopers received the completed criminal background check on Defendant and chose
to begin searching the vehicle, and the time that the troopers located the drugs. However, the
Government argued that the stop’s length was proper because at the time the troopers began
searching the truck, Trooper Nietert had not issued Defendant any tickets, towed the vehicle, or
otherwise concluded the traffic stop. The Government’s supplemental brief does not discuss the
length of the stop.
The Court will not concern itself with the propriety of the stop itself or Trooper Nietert’s
initial investigation because Defendant does not argue that either was improper or unreasonably
lengthy. Thus, the Court must only determine whether the latter half of the stop was unreasonable
in length. The point in time in which a traffic stop’s purpose is competed is “determined, like
other Fourth Amendment inquiries, by objective indicia of the officer’s intent.” United States v.
$404,905.00 in U.S. Currency, 182 F.3d 643, 648 (8th Cir.1999), cert. denied, 528 U.S. 1161
(2000). Once a traffic stop is complete, further detention of the driver or vehicle would be

9

21a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 10 of 15 PageID #: 121

unreasonable, “unless something that occurred during the traffic stop generated the necessary
reasonable suspicion to justify a further detention.” Flores, 474 F.3d at 1103. “An officer’s
suspicion of criminal activity may reasonably grow over the course of a traffic stop as the
circumstances unfold and more suspicious facts are uncovered.” United States v. Suitt, 569 F.3d
867, 872 (8th Cir. 2009). To evaluate reasonable suspicion, the Court must “look to the totality of
the circumstances, in light of the officer’s experience.” United States v. Foley, 206 F.3d 802, 806
(8th Cir. 2000).
Trooper Nietert, who has been employed by the Arkansas State Highway Police for nine
years and possesses special training in criminal interdiction, testified that, while conducting the
initial investigation, several things aroused his suspicions of criminal activity. Trooper Nietert
stated that upon making contact with Defendant, he observed Defendant to appear concerned that
he had been pulled over. He found it suspicious that Defendant claimed to be traveling for a
painting job, but had no painting tools, equipment, or materials in the truck other than a single can
of paint. He stated that he found it suspicious that Defendant chose to bring his partner and two
small children with him on a short, two-day work trip to another state. He also found it suspicious
that Defendant and Fuentes did not have driver’s licenses and were traveling in a vehicle with
expired temporary paper tags that did not belong to them. Additionally, the dash-cam video of the
stop shows that Defendant and Fuentes gave inconsistent answers to Trooper Nietert’s questions
regarding Defendant’s identity—Fuentes told Trooper Nietert that Defendant’s name was Jose
Sanchez, while Defendant stated that his name was Jimmy Sanchez.
Defendant argues that some of these individual factors can be innocently explained, and it
is possible that some of them could be. However, the Court cannot consider the individual factors
in isolation of each other, as they “must be considered as a whole and in the light of the officer’s

10

22a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 11 of 15 PageID #: 122

experience and specialized training.” United States v. Yang, 345 F.3d 650, 655 (8th Cir. 2003).
The Court finds that the facts, viewed in their totality, gave Trooper Nietert the necessary
reasonable suspicion to justify further detention of Defendant. See, e.g., United States v. MurilloSalgado, 854 F.3d 407, 415-16 (8th Cir. 2017) (finding that an officer trained in criminal
interdiction had reasonable suspicion of drug activity based on the defendant driving a rented
vehicle rented in someone else’s name, the officer’s belief that the vehicle did not have sufficient
tools and equipment to perform labor work that the defendant claimed to be traveling for, and the
defendants’ inconsistent answers to the officer’s questions), appeal docketed, No. 17-5303 (S. Ct.
July 24, 2017).
The Court finds that the length of the stop was reasonable. Defendant argues that the period
of time after Trooper Nietert received the criminal-history search for Defendant was unreasonably
lengthy because the troopers lacked probable cause or a reasonable suspicion of criminal activity.
However, as discussed above, the Court finds that Trooper Nietert possessed a reasonable
suspicion of criminal activity. The Court also finds that the troopers acted diligently in pursuit of
their investigation and that the additional twenty-minute wait was not excessive under this case’s
circumstances. See United States v. Sharpe, 470 U.S. 675, 686, 688 (1985) (recognizing that
longer detentions may validly result from “a graduate[d] . . . respons[e] to the demands of [the]
particular situation” and therefore rejecting a “hard-and-fast time limit” for investigatory stops).
Therefore, the Court will not suppress any evidence seized as a result of the stop based on the
stop’s length.
2. Constitutionality of the Search
Defendant argues that the troopers’ search of the vehicle was unconstitutional. The
Government argues that the search was proper.

11

23a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 12 of 15 PageID #: 123

Defendant offers two arguments as to why the troopers’ search of the vehicle was
unconstitutional. First, Defendant argues that the troopers violated his Fourth Amendment rights
by lying underneath the vehicle and observing the undercarriage. Second, Defendant argues that
the troopers violated his constitutional rights by touching or manipulating the black plastic bags
located inside the vehicle’s spare tire without first obtaining a warrant. The Court will address
each argument in turn.
a. Undercarriage of Vehicle
Defendant argues that the troopers violated his constitutional rights by lying underneath
the vehicle and observing the undercarriage. The Government argues that the exterior of a vehicle
does not receive Fourth Amendment Protection, and thus the troopers’ observation of the vehicle’s
undercarriage was proper.
The exterior of a vehicle is not subject to Fourth Amendment protection. United States v.
Hephner, 260 F. Supp. 2d 763, 776 (N.D. Iowa 2003), aff’d, 103 F. App’x 41 (8th Cir. 2004); see
also Katz v. United States, 389 U.S. 347, 351, (1967) (“What a person knowingly exposes to the
public, even in his own home or office, is not a subject of Fourth Amendment protection.”). As a
result, a police officer’s examination of a vehicle’s exterior does not constitute a “search.” New
York v. Class, 475 U.S. 106, 114 (1986).
Defendant argues, without citing to supporting authority, that although a vehicle’s
undercarriage is part of its exterior, it nonetheless receives Fourth Amendment protection because
the undercarriage of a vehicle is not exposed to public view. Defendant points to Trooper Nietert’s
testimony that he very rarely examines vehicles’ undercarriages during the course of ordinary
traffic stops.

Defendant concludes that the troopers’ visual inspection of the vehicle’s

undercarriage violated his constitutional rights.

12

24a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 13 of 15 PageID #: 124

The Court does not agree. Defendant provides no supporting authority to distinguish the
undercarriage of a vehicle from the remainder of the vehicle’s exterior, and the Court is unaware
of any. In fact, courts have found that visual inspections of a vehicle’s undercarriage do not run
afoul of the Constitution. See United States v. Schanon, No. CRIM 10-296 JRT JJK, 2010 WL
6426130, at *2 (D. Minn. Dec. 27, 2010), report and recommendation adopted, No. CRIM. 10296 JRT JJK, 2011 WL 1261097 (D. Minn. Apr. 4, 2011); see also United States v. Rascon-Ortiz,
994 F.2d 749, 754 (10th Cir. 1993) (“The undercarriage is part of the car’s exterior, and as such,
is not afforded a reasonable expectation of privacy.”); Hephner, 260 F. Supp. 2d at 776 (holding
that a toolbox located in an open truck bed is exposed to the public and does not receive Fourth
Amendment protection). The fact that the troopers laid on the ground to observe the vehicle’s
undercarriage does not change this. See California v. Ciraolo, 476 U.S. 207, 213 (1986) (stating
that a police officer may make visual inspections “from a public vantage point where he has a right
to be”); Texas v. Brown, 460 U.S. 730, 740 (1983) (stating that the fact that an officer “changed
[his] position” to visually inspect a vehicle’s exterior is irrelevant to a Fourth Amendment
analysis).
Therefore, the Court finds that the troopers did not violate Defendant’s constitutional rights
by visually inspecting the undercarriage of the vehicle.
b. Seizure of Plastic Bags
Defendant argues that the troopers violated his constitutional rights by manipulating the
black plastic bags without having probable cause to do so. The Government argues that the
troopers had probable cause.
“[S]earches conducted outside the judicial process, without prior approval by judge or
magistrate, are per se unreasonable under the Fourth Amendment—subject only to a few

13

25a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 14 of 15 PageID #: 125

specifically established and well-delineated exceptions.” Katz v. United States, 389 U.S. 347, 357
(1967) (footnote omitted). Law enforcement officials may search an automobile without a warrant
under the so-called “automobile exception” when they have probable cause that the vehicle
contains evidence of criminal activity. See Pennsylvania v. Labron, 518 U.S. 938, 940 (1996).
Probable cause exists when, given the totality of the circumstances, a reasonable person could
believe there is a fair probability that contraband or evidence of a crime would be found in a
particular place. See Illinois v. Gates, 462 U.S. 213, 238 (1983).
Defendant argues that Corporal Bowman observed the black, plastic bags partially hidden
inside the rim of the vehicle’s spare tire. Defendant speculates that Corporal Bowman then reached
out and cut open or otherwise manipulated the plastic bags in order to determine their contents.
Defendant argues that at that time, the troopers did not have probable cause of criminal activity
because they could not see inside the black plastic bags to see their contents. Thus, Defendant
argues that, without manipulating the bags, the troopers could not have known that it contained
methamphetamine, and Defendant concludes that their manipulation of the bags to determine its
contents amounted to an unconstitutional seizure.
The Court disagrees. In this case, the troopers visually inspected the undercarriage of the
vehicle and observed black plastic bags partially hidden in the rim of the vehicle’s spare tire.
Trooper Nietert testified that, in his experience as a state trooper trained in criminal interdiction,
ordinary people do not store legitimate goods inside black, plastic bags underneath a vehicle inside
the rim of a spare tire. Trooper Nietert testified further that his training has taught him that drugs
are occasionally hidden in vehicles’ spare tires. The Court finds that, based on the totality of the
circumstances, the troopers had probable cause to believe that the vehicle contained evidence of
criminal activity at the exact moment they observed the black plastic bags partially hidden

14

26a

Case 6:16-cr-60027-SOH Document 40

Filed 08/30/17 Page 15 of 15 PageID #: 126

underneath the vehicle. As a result, the troopers could seize the black plastic bags without a
warrant pursuant to the “automobile exception.” See Labron, 518 U.S. at 940.
III. CONCLUSION
For the reasons discussed above, the Court finds that Defendant’s constitutional rights were
not violated by the May 26, 2016 stop and the subsequent search and seizure. Accordingly,
Defendant’s motion to suppress evidence (ECF No. 28) is hereby DENIED.
IT IS SO ORDERED, this 30th day of August, 2017.
/s/ Susan O. Hickey
Susan O. Hickey
United States District Judge

15

27a

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1890
United States of America
Appellee
v.
Jose Sanchez
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Arkansas - Hot Springs
(6:16-cr-60027-SOH-1)
______________________________________________________________________________
ORDER
The petition for rehearing by the panel is denied.
May 29, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 18-1890

Page: 1

28a

Date Filed: 05/29/2020 Entry ID: 4918093

